                   March 29, 2002

                   PATRICK R. DONAHOE
                   CHIEF OPERATING OFFICER AND
                    EXECUTIVE VICE PRESIDENT

                   SUZANNE F. MEDVIDOVICH
                   SENIOR VICE PRESIDENT, HUMAN RESOURCES

                   SUBJECT: Management Advisory – Postal Service’s
                            Biohazard Command Center Efforts and
                            Contingency Planning
                            (Report Number EM-MA-02-001)

                   This report presents the results of our self-initiated review of
                   the Postal Service's biohazard command center efforts and
                   contingency planning (Project Number 02XG004CA000).
                   Our objectives were to evaluate the Postal Service's testing
                   and decontamination command center efforts in response to
                   anthrax contamination in the mail system, and to assess the
                   contingency plans/emergency preparedness for possible
                   future biohazard issues of this nature.

Results in Brief   We generally found that the Postal Service’s testing and
                   decontamination efforts in response to the anthrax
                   contamination were effective and that the efforts for future
                   preparedness are appropriate. We commend the Postal
                   Service’s quick response in deploying contractors to
                   potential anthrax-contaminated facilities in order to minimize
                   exposure to employees, and for the creation of the Unified
                   Incident Command Center as a temporary solution for
                   coordinating anthrax sampling, testing, and
                   decontamination. The Postal Service successfully acquired
                   expertise from, and partnered with, many federal and
                   private entities to combat the effects of these attacks.




                          Restricted Information
Postal Service’s Biohazard Command Center                                         EM-MA-02-001
 Efforts and Contingency Planning



                              However, during our review we noted some opportunities for
                              improvement. Specifically, the Postal Service did not
                              provide adequate oversight of contractors, and did not
                              identify a coordinator to implement contingency plans for
                              biohazard emergencies or identify clear milestones for
                              completion of these plans.

 Summary of                   We recommend management establish a policy that would
 Recommendations              prohibit a non-Postal Service project manager from
                              assigning work while also competing for the same work;
                              designate a permanent Postal Service coordinator or entity
                              to implement biohazard contingency policies; and develop
                              and monitor contingency planning milestones.

 Summary of                   Management agreed with these recommendations.
 Management’s
 Comments

 Overall Evaluation of        Management’s comments are responsive to our
 Management’s                 recommendation.
 Comments

 Background                   In the Fall of 2001, the Postal Service’s mail system was
                              contaminated by anthrax enclosed in letters. As part of its
                              immediate response to the threat, the Postal Service
                              contracted with various private sector vendors, either
                              through a General Services Administration or Postal Service
                              contract, to procure testing and decontamination services.
                              Faced with the challenge of combating the anthrax threat
                              and contamination at Postal Service facilities, the Postal
                              Service sought assistance from many federal and private
                              entities, such as the Environmental Protection Agency, the
                              Centers for Disease Control, and the American Public
                              Health Laboratories.

                              The Postal Service also created a Unified Incident
                              Command Center to ensure continuity of operations for the
                              testing and decontamination of Postal Service facilities.
                              Collectively, the individuals in this command center worked
                              around the clock to help sustain the sanctity of the nation’s
                              mail. The Postal Service incorporated the expertise of
                              these individuals, and individuals from additional entities, in
                              the creation and issuance of the Interim Guidelines for



                                                2
                                      Restricted Information
Postal Service’s Biohazard Command Center                                                        EM-MA-02-001
 Efforts and Contingency Planning


                                  Sampling, Analysis, Decontamination, and Disposal of
                                  Anthrax for United States’ Postal Service Facilities.
                                  Beginning October 26, 2001, the Unified Incident Command
                                  Center operated 24 hours a day 7 days a week for
                                  2 months; and then 12 hours a day 7 days a week until it
                                  disbanded operations on February 22, 2002.

                                  Postal Service management has also taken steps to
                                  respond to future biohazard attacks through the creation of
                                  a cross-functional committee, the Mail Security Task Force
                                  Workgroup. This workgroup is comprised of
                                  seven subgroups that included:

                                      •   Contingency Planning System-wide
                                      •   Safety and Security in the Workplace Environment
                                      •   Mailroom Security
                                      •   Communicating and Messaging
                                      •   Mail Preparation
                                      •   Mail Screening
                                      •   Surface Transportation Security

                                  Each group was required to provide presentations to the
                                  Postal Service steering committee, and analyses in written
                                  reports to the chief inspector, due February 28, 2002, for
                                  final review and consideration. These were completed as of
                                  the date of this review.

    Objectives, Scope,            Our objectives were to: (1) evaluate the Postal Service's
    and Methodology               testing and decontamination command center efforts in
                                  response to anthrax contamination in the mail system, and
                                  (2) assess the contingency plans/emergency preparedness
                                  for possible future biohazard issues of this nature. To meet
                                  these objectives, we interviewed officials at the Postal
                                  Service, United States Army Corps of Engineers, members
                                  of the United States’ National Response Team,1 and
                                  contractors. We reviewed the Postal Service’s agreements
                                  with five contractors responsible for the testing and
                                  decontamination of anthrax at Postal Service facilities and
                                  private mailrooms, and assessed command project
                                  management responsibilities. We also reviewed applicable



1
 The National Response Team is comprised of representatives from various federal agencies, and was chartered to
advise the Federal Emergency Management Agency in times of disasters.



                                                       3
                                           Restricted Information
Postal Service’s Biohazard Command Center                                         EM-MA-02-001
 Efforts and Contingency Planning



                              policies, emergency guidelines, and the memorandum of
                              agreement between the United States Army Corps of
                              Engineers and the Office of Inspector General (OIG). Our
                              review was conducted from November 2001 through
                              March 2002, in accordance with the President’s Council on
                              Integrity and Efficiency, Quality Standards for Inspections.
                              We discussed our conclusions and observations with
                              appropriate management officials and included their
                              comments, where appropriate.

 Prior Audit Coverage         We did not identify any prior audits or reviews related to the
                              objectives of this review.

 Operational Contract         Postal Service management did not provide adequate
 Oversight                    oversight of the contractors at the Unified Incident
                              Command Center. Specifically, one contractor in the
                              Unified Incident Command Center was given the authority to
                              provide direction to other contractors while also competing
                              for, and performing, the same work. The lack of separation
                              of duties can allow for a conflict of interest or the
                              appearance of impropriety. Additionally, all contractor
                              representatives on-site at the Unified Incident Command
                              Center were delegated contract administration duties by
                              collaboratively assigning the testing workload.

                              Independent oversight of contracting activities is critical to
                              ensuring that the Postal Service receives those services in
                              the manner specified in the contract. One component of
                              oversight is the separation of duties, which is a sound
                              business practice for proper program management and
                              contract oversight, and is used throughout private industry
                              and the federal government. We recognize the Postal
                              Service’s need to hire external expertise for consultation,
                              however, contractors performing this consulting function
                              should not also compete for the biohazard work. The lack
                              of oversight and separation of duties, with regard to these
                              activities, may have given the appearance of conflicts of
                              interest.




                                                4
                                      Restricted Information
Postal Service’s Biohazard Command Center                                         EM-MA-02-001
 Efforts and Contingency Planning



 Recommendation               We recommend the chief operating officer and executive
                              vice president, in coordination with the senior vice president,
                              Human Resources:

                                  1. Establish policy that would prohibit a non-Postal
                                     Service project manager from assigning work while
                                     also competing for the same work.

 Management's                 Management agreed with this recommendation.
 Comments

 Evaluation of                Management's comments are responsive to our
 Management's                 recommendation.
 Comments

 Contingency                  We noted there were no milestones for the implementation
 Plans/Emergency              of the contingency plans and that confusion existed
 Preparedness                 concerning who was responsible for ensuring
                              implementation of these plans. The Postal Service, through
                              a contingency planning subgroup, is creating strategic
                              emergency response plan templates and guidance;
                              however, these documents lack specific milestones.

                              The contingency planning subgroup’s mission was to review
                              existing contingency plans across all Postal Service
                              functions, evaluate whether they are current and effective,
                              and ensure the plans’ integration into comprehensive
                              system-wide plans. In addition, this subgroup was tasked to
                              design new agency-wide templates for emergency
                              responses and recommend new processes, as appropriate,
                              based on experiences with recent events. This subgroup is
                              also currently creating guidance, entitled Contingency
                              Planning System Wide.

                              During the course of our review, the chief operating officer,
                              and executive vice president, informed us that he would
                              initially take ownership of the Mail Security Task Force
                              Team. We believe designating a permanent centralized
                              coordinator or entity to review and implement contingency
                              plans agency wide is important to ensure continued
                              progress is made on addressing preparedness for




                                                5
                                      Restricted Information
Postal Service’s Biohazard Command Center                                         EM-MA-02-001
 Efforts and Contingency Planning



                              biohazard emergencies. Further, the development and
                              publication of milestones for contingency planning policies is
                              a critical component to future success.

 Recommendations              We recommend the chief operating officer and executive
                              vice president, in coordination with the senior vice president,
                              Human Resources:

                                  2. Designate a permanent centralized Postal Service
                                     coordinator, or an entity, to be responsible for the
                                     implementation of agency-wide contingency policies
                                     for biohazard emergencies.

                                  3. Develop, publish, and monitor milestones to
                                     implement contingency planning policies to ensure
                                     completion is performed expeditiously.

 Management's                 Management agreed with these recommendations.
 Comments

 Evaluation of                We view management's comments as responsive to our
 Management's                 recommendations.
 Comments

                              We appreciate the cooperation and courtesies provided by
                              your staff during the review. If you have any questions,
                              please contact me at (703) 248-2300.



                              John M. Seeba
                              Assistant Inspector General
                                for Financial Statements

                              cc: James J. Rowan, Jr.
                                  Dennis M. Baca
                                  Samuel M. Pulcrano
                                  Susan M. Ducheck




                                                6
                                      Restricted Information
Postal Service’s Biohazard Command Center                      EM-MA-02-001
 Efforts and Contingency Planning


                   APPENDIX. MANAGEMENT’S COMMENTS




                                                7
                                      Restricted Information
